No. 19-75

In the Supreme Court of the United States

 

JAMES JOSEPH GARNER,
Petitioner,
Vv.

STATE OF COLORADO,
Respondent.

 

On Petition for a Writ of Certiorari to the
Colorado Supreme Court

 

CERTIFICATE OF SERVICE

 

I, L. Andrew Cooper, a member of the Bar of the United States Supreme Court,
certify that on July 25, 2019, as required by Supreme Court Rule 29.3, I caused the
foregoing Motion under Supreme Court Rule 30.4 to Extend Time to File Brief
in Opposition to be electronically filed with the Clerk of the U.S. Supreme Court,
as well as causing the original and ten copies of the Motion to be delivered to the
Clerk via the U.S. mail in a properly addressed, first class postage pre-paid envelope;
and also to be served on counsel for the Petitioner, electronically and by depositing
three copies of same into the U.S. mail, first class postage pre-paid (or via personal
delivery*) in properly addressed envelopes, addressed to the following:

Jeffrey L. Fisher Megan A. Ring*

Stanford Law School Inga K. Nelson

Supreme Court Clinic Office of the Colorado State Public Defender
559 Nathan Abbot Way 1300 Broadway, Ste. 300

Stanford, CA 94305 Denver, CO 80203

jifisher@law.stanford.edu PDApp.Service@coloradodefenders.us
Counsel of Record
FOR THE ATTORNEY GENERAL

LB
/s/ L. Andrew Gooper.
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, 10% Floor
Denver, CO 80203
(720) 508-6465
Email: andrew.cooper@coag.gov
Counsel of Record for Respondent
